Case No.

21
ftPiSIi!
1IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

AUG 1 3 2021
OFFICE OF THE CLERK

IN RE EDUARDO PINEDA

PETITION FOR AN EXTRAORDINARY WRIT OF HABEAS CORPUS

EDUARDO PINEDA,
Pro se
BOP #27156-078
FCI BEAUMONT LOW
P.O. Box 26020
Beaumont, TX 77720

RECEIVED
SEP 2 8 2021

gmasg-ffr
RECEIVED
AUG 1 3 2021

aaasgB&gfflr

QUESTIONS PRESENTED

[i]

Does the constitutional right to "liberty" as contained
in the due process clause still mean freedom from
physical restraint by government police power?

[2]

Are the operations and effects of federal marijuana laws
an Article III case and controversy subject to the
strict scrutiny judicial review standard?

[3]

Is being incarcerated a substantial denial of the
Petitioner's constitutional right to liberty considering
Congress' proscription of marijuana as a dangerous
substance fails to provide due process of law in
violation of Amendments IV and V of the Constitution
of the United States?

11

LIST OF PARTIES
All parties appear in the caption on the cover page.

V

\

'\

iii

TABLE OF AUTHORITIES CITED
PAGE NUMBER

•CASES
Chapman v. United States, 500 U.S. 453, 465 (1991)

5

Loving v. Virgina, 388 U.S. 1 (1967)

6

McLaughlin v. Florida, 379 U.S. 184 (1964)

7

Norfolk & W.R. Co. v. Public Service Commission of

6

West Virgina, 265 U.S. 70 (1924)
Rescue Army v. Municipal Court, 331 U.S. 549 (1974)

7

United States v. Carolene Products Co., 304 U.S. 144

6

(1938)
United States v. Kiffer, 477 F.2d 349 (2d Cir. 1973)

5

West Virginia Board of Education v. Barnette, 319 U.S.

5

624 (1943)
•STATUTES AND RULES
Constitution of the United States:
Art. I.5 Sec. 9.> Cl. 2

8

Art. Ill, Sec. 2

7

Amendment IV

6

Amendment V

6

28 U.S.C. § 2241

Generally

28 U'.S.C. § 2242

Generally

28 U.S.C. § 2243

Generally

28 U.S.C. § 2255

5

21 U.S.C. § 841

6

IV

TABLE OF CONTENTS'i
•OPINIONS BELOW

1

•JURISDICTION

2

•CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT .

8

CONCLUSION

8
INDEX TO APPENDICES

•FINAL JUDGMENT

A

•ORDER ADOPTING REPORT AND RECOMMENDATION OF UNITED STATES
MAGISTRATE JUDGE

B

•REPORT AND RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE

C

•MOTION UNDER 28 U.S.C. § 2255 TO VACATE, SET ASIDE, OR
CORRECT SENTENCE

D

•OBJECTIONS TO REPORT AND RECOMMENDATION OF UNITED STATES
MAGISTRATE JUDGE

E

:v

„

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF HABEAS CORPUS
Petitioner respectfully prays that a writ of habeas corpus issue to
relieve the judgment below.
OPINIONS BELOW
[x]

For cases from federal courts:
•The Final Judgment (ORDER) of the United States District
Court for the Eastern District of Texas (Tyler Division)
appears at Appendix A to the petition and is unpublished.
•ThejORDER Adopting the Report and Recommendation of the
United States Magistrate Judge appears at Appendix B and
is unpublished.
•The Report and Recommendation of the United States
Magistrate Judge appears at Appendix C and is unpublished.

1

JURISDICTION
The ORDER of the United States District Court denying relief
under 28 U.S.C. § 2255 was entered on June 28, 2021. [Appendix

A].
A Certificate of Appealability was denied sua sponte in the
same ORDER, [id.].
This Court has proper jurisdiction as a venue of last resort
pursuant to 28 U.S.C. §§ 2241, 2242, and 2243.
This Court alternatively has jurisdiction under 28 U.S.C. §
1254(1):
Cases in the court of appeals may be reviewed by the
Supreme Court by the following methods:
(l) By writ of certiorari granted upon the petitioner
of any party to any civil or criminal case, before
or after rendition of judgment or decree.

[id.3.
This case will be in the aid of this Court's appellate juris­
diction because it will provide an opportunity to address
the application of strict scrutiny to 21 U.S.C. § 812, and
will evaluate the categorization of marijuana as a schedule
I controlled substance.
Due fo the simultaneous legality/illegality of marijuana
as a; function of one's location, this Court should utilize
evolving standards of decency to address federal laws crimi­
nalizing marijuana. No other drug is similarly situated.
Essentially, the treatment of millions of Americans remains
in limbo as the federal government outlaws marijuana com­
pletely. Yet, this Government has no reasonable interest
in proscribing marijuana; therefore showing exceptional cir.
Pineda cannot obtain relief elsewhere: District Court has
already ruled on and rejected the merits, and no reason
applies to reconsideration, nor to Rule 59(e) or 60(b);
Appellate Court's deadlines have already passed, as has
any reasonable opportunity for motion to recall the.mandate.
Moreover, both are: bound by Fifth Circuit precedent that
continues to hold arbitrarily that the Government maintains
an interest in continuing to proscribe marijuana. A
decision, therefore, from this Court, will address whether
marijuana should receive strict scrutiny, and whether it
should remain unlawful.
2

CONSTITUTIONAL PROVISIONS
Article I, Section 9. Clause 2. of the United States Constitution provides: The Privilege of the Writ of
Habeas Corpus shall not be suspended, unless when in Cases of Rebellion or Invasion the public Safety
may require it.
Article III Section 2. The Judicial Power shall extend to all Cases, in Law and Equity, arising under this
Constitution, the Laws of the United States, and Treaties made, or which shall be made, under their
Authority;—to Controversies to which the United States shall be a Party;
.

Amendment IV The right of the people to be secure in their persons, houses papers, and effects against
unreasonable searches and seizures shall not be violated,
Amendment IV "The right of the people to be secure in their persons, houses, papers and effects,
against unreasonable searches and seizures, shall not be violated,...
Amendment V No person shall be ... deprived of life, liberty, or property, without due process of law;

UNITED STATES CODE
28 U.S. Code § 2241,
(a) Writs of habeas corpus may be granted by the Supreme Court, any justice thereof, ...
{c)The writ of habeas corpus shall not extend to a prisoner unless—
(1) Hejis in custody under or by color of the authority of the United States ...
(2) He'is in custody for an act done ... in pursuance of an Act of Congress,
(3) He is in custody in violation of the Constitution or laws or treaties of the United States ...
28 U.S. Code § 2242,
If addressed to the Supreme Court, a justice thereof or a circuit judge it shall state the reasons
for not making application to the district court of the district in which the applicant is held.
28 U.S. Code §2243
A court, justice or judge entertaining an application for a writ of habeas corpus shall forthwith
award the writ or issue an order directing the respondent to show cause why the writ should not be
granted, unless it appears from the application that the applicant or person detained is not entitled
thereto.
The writ, or order to show cause shall be directed to the person having custody of the person
detained. It shall be returned within three days unless for good cause additional time, not exceeding
twenty days, is allowed.
The person to whom the writ or order is directed shall make a return certifying the true cause of
the detention.

; 3 -

When the writ or order is returned a day shall be set for hearing, not more than five days after
the return unless for good cause additional time is allowed.
Unless the application for the writ and the return present only issues of law the person to whom
the writ is directed shall be required to produce at the hearing the body of the person detained.
The applicant or the person detained may, under oath, deny any of the facts set forth in the
return or aflege any other material facts.
The return and all suggestions made against it may be amended, by leave of court, before or
after being filed.
The court shall summarily hear and determine the facts, and dispose of the matter as law and
justice require
28 U.S. Code § 2255. Federal custody; remedies on motion attacking sentence
(a } A prisoner, in custody under sentence of a court established by Act of Congress claiming the right to
be released upon the ground that the sentence was imposed in violation of the Constitution or laws of
the United States, or that the court was without jurisdiction to impose such sentence, or that the.
sentence was in excess of the maximum authorized by law, or is otherwise subject to collateral attack,
may move the court which imposed the sentence to vacate, set aside or correct the sentence.
21 U.S. Code SUBCHAPTER I—CONTROL AND ENFORCEMENT
21:841(a)(l), 21:841(b)(l)(B), 18:2- Manufacture and Possession With Intent to Manufacture and
Distribute 100 or More Marihuana Plants and Aiding and Abetting

\

4

STATEMENT OF THE CASE
The ground of a federal question was first raised in the
motion under 28 U.S.C. § 2255 as ground one. [Appendix D at 04].
It claimed ineffective assistance of counsel, [id. at 09].
GROUND ONE: Mr. Pineda is in custody in violation of
Amendments IV and V of the Constitution of the United
States. He is being deprived of his constitutional
right of liberty without compelling government. interest
in proscribing .marijuana nor due process of law.
The District Court opined Pinedo, ",[F]ailed to present a
substantial showing of a denial of a constitutional right. [Append
dix C at 12].

Additionally, the District Court's Final Judgment-

denied the Petitioner a Certificate of Appealability.
ARGUMENT
•LIBERTY: Freedom from Physical RestraintIncarceration represents a substantial denial of the Petitioner's inalienable
and

constitutional right to liberty, freedom,

specifically, freedom from unwarranted physical restraint.,

"Every person has a fundamental right to liberty..." [Chapman v.
United States, 500.U.S. 453, 465 (1991)].

Concerning standard of

review applicable here, "The only cases that require a stricter
standard of review are those that involve an infringement of a
right explicitly enunciated in the Constitution." [United States
v. Kiffer, 477 F.2d 349, 352 (2d Cir. 1973)].

Essentially, "One's

right to life, liberty, and property,...may not be submitted to
vote; they depend on the outcome of no electons." [West Virginia
Board of Education v. Barnette

319 U.S. 624, 638 (1943).

Moreso

"Criminal statutes [must] be subjected to the most rigid scrutiny
...if they are ever to be upheld, they must be shown to be neces5

sary to the accomplishment of some permissible [government] ob­
jective." [Loving v. Virginia, 388 U.S. 1, 11 (1967)].
•Relevant Constitutional Amendments*
In part, this amendment holds, "The right of

AMENDMENT IV.

the people to be secure in their persons, houses, papers, and
effects against unreasonable .searches and seizure shall not be
violated:.. . " [id. ].

This section is often referenced in terms of

the reasonableness of the law that authorized police power to
seize'the Petitioner's person and deprive him of his liberty,

The

constitutionality of the Controlled Substance Act [codified at 21
U.S.C. § 801

et seq.] proscribing marijuana under the guise that

it is a dangerous substance is "without support in reason because
the article, although within the prohibited class, is so different
from others of the [same] class [e.g., heroin] as to be without
the reason for prohibition." [United States v, Carolene Products
Co.

304 U.S. 144, 153-54 (1938)].

This Court has previously ad-

dressed regulatory measures:
The validity of regulatory measures may be chal­
lenged on the ground that they transgress the
Constitution, and thereupon it becomes the duty
of the court, in the light of these facts in the
case, to determine whether the regulation is
reasonable and valid or essentially unreasonable,
arbitrary arid void.
[Norfolk & W.R. Co. v. Public
Service Commission of West
Virginia, 265 U.S. 70, 74
(1924)].
AMENDMENT V.

In part, this amendment holds, "No persons

shall...be deprived of life, liberty, and property without due
process of law." [id.].

This petition for habeas relief concerns

the due process of having created the law
6

the substance thereof,

and the compelling reasons for Congress to have proscribed can­
nabis .
Criminal laws are an Article III case and controversy.
"[T]he case and controversy limitation [is an] American institu­
tion of judicial review...for the preservation of individual
rights." [Rescue Army v. Municipal Court, 331 U.S. 549, 72
(1947)].

The constitutionality of criminal laws is reviewed by

the strict scrutiny standard, meaning governmental "police power
which trenches upon the constitutionally protected freedom... bears
a heavy burden of justification...and will be upheld only if it is
necessary and not merely rationally related[] to the accomplishment
of a permissible [government] policy." [McLaughlin v. Florida

379

U.S. 184,!196 (1964)].
This petition for a writ of habeas corpus seeks the Court's
determination of whether the marijuana proscription laws of the
United States were imposed pursuant to compelling reasons, govern­
ment interests, and lawful authority; and whether such laws may
be predicated upon marijuana being deemed a dangerous substance
and, ultimately, rises to the necessity to deprive the Petitioner
of liberty and freedom, from physical restraint (i.e., federal
imprisonment).

7

COMPELLING REASONS FOR GRANTING THE WRIT
Exceptional circumstances warrant the exercise of this Court's
original habeas jurisdiction.

The compelling reason for granting

this extraordinary writ is due to the district court having denied
that imprisonment is a substantial denial of the Petitioner's
federal constitutional right to liberty and freedom from physical
restraint.

The court dismissed the Petitioner's motion under 28

U.S.C. § 2255 and sua sponte denied a certificate of appealability.
The court: denied that liberty deprivation for violating federal
marijuana laws is not an Article III case and controversy.
In justifying the granting of this petition for a writ of
habeas corpus, the Petitioner has shown that exceptional circum­
stances warrant the exercise of this Court's discretionary powers,
and that adequate relief was not obtained from the district court.
This Court should exercise supervisory power to ameliorate the
inherent injustice herein.

CONCLUSION
This Court should award the Petitioner a writ of habeas corpus
or issue an order directing the United States to show cause con­
cerning the proscription of marijuana-as a dangerous•drug and
delineating why the writ should not be granted.
Respectfully Submitted,
Eduardo Pineda, pro se
Reg. No. 27156-078
FCI Beaumont Low
P.0. Box 26020
Beaumont, TX 77720
8

